Case #:
THE SUPREME COURT OF THE UNITED STATES

Tamara Rouhi

Original Case Number: 19CV3052

Plaintiff7Appellant

Original Case/Complaint/Exhibits
Filed: 10/18/19

V
Appellate Court Case Number:
20-1791

Kettler et al
Defendants/Appellee

A review from the US Court of
Appeals for the Fourth Circuit.
Civil Case.
Jury not requested.

APPENDIX VOLUME I: COURT FINDINGS
Whiteford, Taylor &
Thomas Thomas and
Tamara Rouhi
Preston 7 St. Paul Street, 14th
floor Baltimore, MD 21202

Hafer LLP
WoodHolme Center

125 Fennington Circle
Owings Mills MD 21117

18009878705

1829 Reisterstown Rd, Ste

4105228217

Counsel for Kettler

200

Pro Se Plaintiff/Appellant

Law Offices of Jonathan P.

Baltimore, MD 21208

Stebenne 100 South Charles

4106530460

Street, Suite 1101 - Tower II

Counsel for Habitat

Baltimore, MD 21201

America

4107520575
Counsel for Habitat America

Table Of Contents
Court Findings
Document
Order Dismissing the Original
Case
From Judge Stephanie A. Gallagher
(unsigned)____________________ ___
Letter Opinion
A Memorandum that accompanied
the order from Judge Stephanie A.
Gallagher (unsigned)_____________
Judgement
From the US Court of Appeals by a
Clerk Patricia S. Connor (unsigned)
Unpublished Opinion
From the US Court of Appeals by an
unknown person (unsigned)
Mandate
From the US Court of Appeals by
Clerk Patricia S. Connor (unsigned)

Page Number
3

4

10

11

13

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

TAMARA ROUHI,
Plaintiff,
V,

KETTLER, etai,

Defendants.
*

*

*

*

*

*

*
*
*
*
*
*
*
*
*
*
*
*
*

Civil Case No.: SAG-19-3052

*

A

*

*

ORDER
For the reasons stated in the accompanying Memorandum Opinion, it is this 24th day of
June, 2020, ORDERED that Defendant Kettler’s Motion to Dismiss, ECF 8, and Defendant Habitat
Amenca’s Motion to Dismiss, ECF 17, are GRANTED. Plaintiffs claims against both Defendants
will be dismissed without prejudice. The Clerk is directed to CLOSE this case.
Date: June 24, 2020

/s/

Stephanie A. Gallagher
United States District Judge

3

CHAMBERS OF
STEPHANIE A. GALLAGHER
UNITED STATES DISTRICT JUDGE

UNITED STATES DIST RICT COURT
DISTRICT OF MARYLAND
101 WEST LOMBARD STREET
BALTIMORE, MARYLAND 21201
(410) 962-7780
Fax (410) 962-1812

June 24, 2020
Tamara Rouhi
125 Fennington Circle
Owings Mills, Maryland 21117
LETTER OPINION
RE:

Rouhi v. Kettler, etal, 19-3052-SAG

Dear Ms. Rouhi and Counsel:
rHabit^f^^ flled

lawsmt^ra

against Kettler and Habitat America, LLC

supplements, and replies ECF 10 19 20°2I oTo^n'T’ al°"B ™th the relevant oppositions,
(DbMd. 2018). Fo/the reaS^ £& ^
subject matterjunsdiction, and Rouhi’s Complaint will be dismissed without pfejudice
As courts of limited jurisdiction, federal
, . „ _
courts “may not exercise jurisdiction absent a
oiy basis. Exxon Mobil Corp. v. Allapaltah Servs., Inc., 545 U.S. 546, 552 (2005) In fact
[a] com ,s to presume ... that a case lies on,side its limited junsdtction unless and until
Tostt 7 r
'° be Pr°Per " Unt“dSta^ v. Poole, 531 F.3d 263, 274 (4ft C,r
20081 (citing Kokkonen v Guardian Life Ins. Co. ofAm., 511 U.S. 375,377(1994))
. .

97, 106 (1976); see also Loe v. Armistead, 582 F.2d 1291, 1295 (4th C.r. 1978). Essentially pro

449 ulTsTo 0980) (nerS

*h°Se ***by attonKys- *** »■ ^e,

U.S. 5, 9 10 (1980) (per cunam). However, even liberal construction does not require distnct

Brecon,roe,.ors,

7

Rouhi v. Kettler
Civil No. SAG-19-3052-SAG
June 24, 2020
Page 2
courts
to “
1274 1278°4lhC
^loTsf0118

SqU3rely presented ” Beaudett v. City ofHampton, 775 F.2d

The burden rests with Rouhi, as “the party asserting jurisdiction to demonstrate that
jurisdiction does, m fact, exist.” Lovem v. Edwards, 190 F.3d 648, 654 (4th Cir. 1999) If “a
defendant challenges the existence of subject matter jurisdiction in fact, the plaintiff bears the
burden of proving the truth of such facts by a preponderance of the evidence.”
United States ex
rel. Vuyyuru v. Jadhav, 555 F.3d 337, 347 (4th Cir. 2009).
Each of Rouhi’s three jurisdictional assertions will be addressed in turn.
A. Federal Question Jurisdiction
Congress has invested the district courts with original jurisdiction over civil actions ansine
under the Constitution, laws, or treaties of the United States, commonly called “federal question
jurisdiction ExxonMobil Corp., 545 U.S. at 552; 28 U.S.C. § 1331. While Rouhi’s Complaint
cites to six federal statutes and one Constitutional provision, all of her federal claims are frivolous
because they are expressly precluded by governing law. Because Rouhi has no pnvate right of

S"

her Comp,a,nt does

, , , Simp!e refereijce to federal statutes or constitutional provisions is insufficient to establish
ederal question jurisdiction, where no colorable claim exists. As the Fourth Circuit explained:
It is equally clear that the federal question, to confer jurisdiction on the federal
District Court, must be real and substantial, not colorable or frivolous. The federal
question must really appear, not by mere inference or suggestion Hanford v
Davies, 163 U.S. 273, 16 S.Ct. 1051, 41 L.Ed. 157; Western Union Telegraph Co
v. Ann Arbor R. Co., 178 U.S. 239, 20 S.Ct. 867, 44 L.Ed. 1052. And the federal
question must be an essential or integral part of the plaintiffs case. Tennessee v.
Union & Planters’Bank, 152 U.S. 454, 14 S.Ct. 654, 38 L.Ed. 511; Shulthis v.
Even if this Court had found a basis to exercise federal question jurisdiction, this Court would
grant Defendants Motions to Dismiss on the basis of Rule 12(b)(6), for failure to state a claim
upon which relief can be granted, as to the federal claims Rouhi asserts without a viable pnvate
right of action against non-governmental defendants. The only distinction, if the case were to be
adjudicated on that basis instead of on junsdictional grounds, would be that this Court would have
discretion to exercise supplemental jurisdiction over Rouhi’s state law claims, because original
junsdicnon would have arguably existed at the time the case was filed. Even under that scenano
?oeTC°Up TltS wde latItude”t0 decline to exercise supplemental junsdiction under
28 U.S.C. § 1367(c), because there are no underlying issues of federal policy and no judicial
economy concerns, at this early stage of the proceeding, weighing in favor of federal retention of
Rouhi s state law claims. See Shanaghan v. Cahill, 58 F.3d 106, 110 (4th Cir 1995) fcitino
Camegie-Mellon University v. Cohill, 484 U.S. 343, 350 n. 7 (1988))
^
&
2

b

Rouhi v. Kettler
Civil No. SAG-19-3052-SAG
June 24, 2020
Page 3
MacDougal, 225 U.S. 561, 32 S.Ct. 704, 56 L.Ed. 1205. Mere references to the
ederal Constitution^ laws or treaties and mere assertions that a federal question is
bTcf
SUf‘C'ent confer jurisdiction. Starin v. New York, 115 U.S. 248
6 S.Ct. 28, 29 L.Ed. 388; Parrel v. O’Brien, 199 U.S. 89 25 S Ct 727 50 T va
101, Lambert Run Coal Co. v. Baltimore & Ohio R Co 258 US 377 42 S ft
against cases m which the alleged federal question is purely fictitious.
U
'',?*T156 R 2d 739■ 741 <4th Clr 194«); see also Bell v Hood 327
f-J-on “where thl illege^m « Co^ontwettaWes 3^“

wSymst^^

purpose

« whSrs^

(theft of majoCr’XoTk^a^^)-18*usc“§
property or records)- 18 USf TmilYt

,

^ J® US C § 663

SC §641 (embezzlement of public money,

Development); 18 U.S.C. § 1001
(possess,on of false papers ,o defraud the Un.ted Smes). Aslofter^judgeof
CoiZs
cogently explamed, a civil plaintiff like Rouh, cannot bring suit under generj crimM
statutes:
has been

nse to a private cause
Cam°n V UniV °?Chl’ 441 U.S. 677, 688
Conarp«F d?/? n§5 °feCtl°n’ h7ke substantlve federal law, “must be created by
Congress. Alexander v. Sandoval, 532 U.S. 275, 286 (2001) (citing Touche Ross
fcnon”V'thfFmTr442- U,S- 56°’ 578 (19?9))- “T° Create a P^vate *8* of
action, the Fourth Circuit has explained, Congress must ‘“speakR with a clear
voice and file statute must ‘unambiguously’ express the intent ‘to create not just a
private right but also a private remedy"’ Clear Sky Car Wash LLC v City of

xevTm iJfwmu 444,(4th CV°14) (quotmg Go^a Univ- v Doe

IrlFc
’ I (2002) (e?Phasis m Gonzaga). Where “Congress is silent or
Wh?hpUS’ COmJS may n0t£md a cause of actlon ‘no matter h°w desirable that
T,tl Cy matt6r' PlamedParenthood S. Atlantic v. Baker 941 F 3d
687 695 (4th Cir. 2019) (quoting Alexander, 532 U.S. at 286-87). This holds true
for federal criminal statutes. See Doe v. Broderick, 255 F.3d 440, 448 (4th Cir
2000); Fed. Sav. & Loan Ins. Co. v. Reeves, 816 F.2d 130, 138 (4th Cir. 1987V
accord Tam Anh Pahm v. Deutsche Bank Nat. Trust Co., 583 F. App’x 216, 217
(4th Cir. 2014).
MdJF^b ^"^ V Internal Revenue Service, Civ. No. ELH-19-1956

3

2020 WL 902546, at *14 (D.

G7

Rouhi v. Kettler
Civil No. SAG-19-3052-SAG
June 24, 2020
Page 4

None of the statutes Rouhi cites provides any private remedy for citizens to invoke m a
cm! suit, as they are bare criminal statutefs], with absolutely no indication that civil enforcement
ofany kind [ijs avalable t° anyone.” Cart v Ash, 422 U.S. 66, 80 (1975);
also eg Phillips
v. North Carolina, Civil No. 5:19-CV-111-D, 2020 WL 2150526 (E D N C Mar 24 2020)
,18-cv-

No. 04-CV-0164E, 2004 WL 1698445, at *2 (WDNY Julv 26 2004W“TnI+- l™™0™: Cjwl
clauns for cnminal theft and embezzlement must be dtsmtssed because there ,s no pnvateTgEfof
1SU.S.C. §641.”);
at*l n.l (S.D.N.Y. Feb. 21,’
1002, which do

mTbUsthaT^ 311 er
.?m&gement company. The only remedy provided m 921121(b) !s that any person found guilty of larceny or wrongful appropriation shall be punished as
fnvobuT
^
’ R0Uhl’S C1Vl1 d3im underthat
statut® is improper and
A

/feferal claim’ Rouhi’s Complaint alleges “violations of rights granted bv
menca ( e
amendment). ECF 1 at 2. Because each action alleged in the complaint was
taken by a private actor, a Fourth Amendment claim cannot lie. As courts have made clear
unequivocally, It is axiomatic that ‘[t]he Fourth Amendment protects against unreasonable
seiches and seizures by Government officials and those pnvate individuals acting as instruments
or agente of the Government. ..’ The Fourth Amendment, however ‘does not provide protection
aCtmg m apnvate capacity”’ United States v Day, 591
F.3d 679, 683 (4th Cir. 2010) (quoting United States v. Jarrett, 338 F.3d 339, 344 (4th Cir. 2003))
Employee! "See
“ questl0n Were taken ^ “T™bercroft
employees, bee, e g., ECF 1 at 5 ( Timbercroft employees constantly entered my home with their
ComrtiI,7R NH y’ ^ n Y
”° Pn0r notlCe,,)- Even
a liberal construction of her
the
d7tn0t ^ 6ge Aat
SUCh emPloyees were acting as instruments or agents of
the Government and her constitutional claim, therefore, is also frivolous. In the absence of anv
real, substantial federal question, this Court lacks federal question jurisdiction over Rouhi’s clamj

7

Rouhi v. Kettler
Civil No. SAG-19-3052-SAG
June 24,2020
Page 5
B. Diversity Jurisdiction
In the absence of federal question jurisdiction, Rouhi has to demonstrate that this conn h„s
diversity Junsdiction to entertain her case. Diversity junsdiction exSs“t
matter in
ami the Complaint alleges thatKetdeHs a^Virginia compan^The^perative question^tiien^stto
^ex,s,s

(explaining that § 1332 requires complete diversity).

v. Kroger, 437 U.S. 365, 377 (1978)

Mountain State Carbon, LLC, 636 F 3d 101 103 (4th Cir 20111 “Tf

?7tir ■

**

V E"ergy Co v■

? ^SS,gnment & Indemnification Co. v. Lind-Waldock & Co 364 F 3d 858'861

Us —If

rg *? anaIySiS' a **> LLC ™y be a <*» of moie to SeTf

as New Day may be a citizen of multiple states.”) *

( ^

’ 2°15) ( But 311LLC Such

In judging an evidentiary attack on
court may .insider evidence by affidavit,
proceeding to one for summary judgment.” Adams v. Bam, 697 F.2d 1213 1219 (4th C: 1°9821
ifS TmflT516/262' (4thCir 1975» ffere> Habitat has submitted evidence^ wav
LLC^and^Os^rey^Property^oup LLC ^ECFTy^^^^&B^HoMhi^IXC^5 I ^^l^diriil
Maryland resident, Catterine iVur^/I MeLltile^spTw ^“ij
member, David R. Lewis, is a resident of Nevada Id. Accordingly, HabiS is both a Marvl^id
resident and a Nevada resident. Because Rouhi is also a Maryland resident the parties ^ not
completely Averse. ®d thus, <fiv«sity jurisdiction does not St in this case.’ SS
t,
15^‘54/ 1116 Court’ nonetheless, has adhered to the complete diversity rule in light of
the purpose of the diversity requirement, which is to provide a federal forum for important disputes
where state courts might favor, or be perceived as firing, home^^gmiHS^S
Son “e™ f n32n
*3
***
»• elSn^fp^pal
reason tor conferring § 1332 junsdiction over any of the claims in the action ”) This Court
therefore lacks ongmal jurisdiction over any of Rouhi’s claims.
' '
1S Court
C. Supplemental Jurisdiction
28 U.S.C. §
original jurisdiction...

"f
^ Civil action of
the district courts have
e district courts shall have supplemental jurisdiction over all other claims
5

$

Rouhi v. Kettler
Civil No. SAG-19-3052-SAG
June 24, 2020
Page 6
that are so related to claims in the action within such original jurisdiction that they form part of the
same case or controversy.” This provision is recognized as “a broad grant of supplemental
jurisdiction over other claims within the same case or controversy, as long as the action is one in
which the district courts would have original jurisdiction.” Exxon Mobil, 545 U.S. at 558. As the
Supreme Court explained in Exxon Mobil, “In order for a federal court to invoke supplemental
jurisdiction ... it must first have original jurisdiction over at least one claim in the action
Incomplete diversity destroys original jurisdiction with respect to all claims, so there is nothing to
which supplemental jurisdiction can adhere.” Id. at 554. Here, as described above, this Court does
not have original jurisdiction over any of the claims in this case. Thus, supplemental jurisdiction
does not provide a mechanism for this Court to adjudicate Rouhi’s claims.
D. Kettler’s Rule 12(b)(6) Motion to Dismiss
Although the Court lacks jurisdiction to reach the merits of this case, it is worth noting that
Rouhi’s claims against Kettler also appear to be barred by Maryland’s three-year statute of
limitations. See Md. Code Ann., Cts. & Jud. Proc. § 5-101. As Rouhi concedes, Kettler’s term as
property manager of Timbercroft Townhomes ended on May 31, 2016, more than three years
before Rouhi filed her Complaint — on October 18, 2019. Accordingly, to the extent Rouhi
intends to attempt to refile her claims in any court, she should ensure that she is also able to address
the apparent limitations bar to any claims against Kettler.
For the reasons set forth herein, both motions to dismiss, ECF 8 and ECF 17, will be
granted. Rouhi s claims against both Defendants will be dismissed without prejudice, and this
case will be closed.
A separate order follows.
Sincerely yours,
/s/

Stephanie A. Gallagher
United States District Judge

6

O

FILED: December 21, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1791
(1:19-CV-03052-S AG)

TAMARA ROUHI
Plaintiff - Appellant
v.
KETTLER; HABITAT AMERICA LLC
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

ID

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1791
TAMARA ROUHI,
Plaintiff - Appellant,
v.
KETTLER; HABITAT AMERICA LLC,
Defendants - Appellees.

Appeal from the United States District Court for the District of Maryland, at Baltimore
Stephanie A. Gallagher, District Judge. (1:19-cv-03052-SAG)

Submitted: December 17, 2020

Decided: December 21, 2020

Before THACKER, HARRIS, and QUATTLEBAUM, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Tamara Rouhi, Appellant Pro Se. Charles Lester Simmons, Jr., WHITEFORD,
TAYLOR & PRESTON, LLP, Baltimore, Maryland; Mark Anthony Kozlowski LAW
OFFICES OF JONATHAN P. STEBENNE, London, Kentucky; Louis C. Long Charles
Benjamin Peoples, THOMAS, THOMAS & HAFER, LLP, Washington, D.C.,
’
for
Appellees.

Unpublished opinions are not binding precedent in this circuit.

II

PER CURIAM:
Tamara Rouhi appeals the district court’s order dismissing her complaint for lack of
subject matter jurisdiction. We have reviewed the record and find no reversible error.
Accordingly, we affirm for the reasons stated by the district court. Rouhi v. Kettler, No.
1:19-cv-03052-SAG (D. Md. June 24, 2020). We dispense with oral argument because the
facts and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

2

12

FILED: January 12, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1791
(1:19-cv-03052-S AG)
TAMARA ROUHI
Plaintiff - Appellant
v.
KETTLER; HABITAT AMERICA LLC
Defendants - Appellees

MANDATE
The judgment of this court, entered December 21, 2020, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.

/s/Patricia S. Connor. Clerk

a

.

Case #:
THE SUPREME COURT OF THE UNITED STATES

Tamara Rouhi

Original Case Number: 19CV3052

Plaintiff7Appellant

Original Case/Complaint/Exhibits
Filed: 10/18/19

V
Appellate Court Case Number:
20-1791

Kettler et al
Defendants/Appellee

A review from the US Court of
Appeals for the Fourth Circuit.
Civil Case.
Jury not requested.

APPENDIX VOLUME II: AUTHORITIES
Tamara Rouhi
Thomas Thomas and
Whiteford, Taylor &
Preston 7 St. Paul Street, 14th
floor Baltimore, MD 21202

Owings Mills MD 21117

1829 Reisterstown Rd, Ste

4105228217

Counsel for Kettler

200

Pro Se Plaintiff/Appellant

Law Offices of Jonathan P.

Baltimore, MD 21208

Stebenne 100 South Charles

4106530460

Street, Suite 1101 - Tower II

Counsel for Habitat

Baltimore, MD 21201

America

Counsel for Habitat America

*

WoodHolme Center

125 Fennington Circle

18009878705

4107520575

•*

Hafer LLP

Table Of Contents
Authorities
Statute Title

Page
Number
3

Code

Article III, Section 2, US Constitution Article III, Section 2, US
Constitution
MD §22-701
Breach of Contact

3

Certiorari

28 U.S. Code § 1254

4

Civil Rights

The Civil Rights Act of 1964,
title II
18 U.S. Code § 242

4

28 U.S. Code §1332

5
6

Exploitation of the poor and disabled

18 U.S. Code § 641, 18 U.S.
Code § 1012
MD § 8-801

Federal Question

28 U.S. Code §1331

7

Final decisions of district courts

28 U.S. Code §1291

7

First Amendment
Fourth Amendment

US Constitution
US Constitution

7
8

Fraud

8-9

Harassment

18 U.S. Code § 1001
18 U.S. Code §1002
MD § 8-501(1)
MD § 3-803

Interference with exercise of rights

MD § 20-708

10

Larceny

10

Malicious Trespass

10 U.S. Code §921-121
(4th amendment)
MD § 6-403

Obstruction of Justice

18 U.S. § 1505

11

Smoking Restriction Exceptions
Stalking

MD Health-Gen
24-505
MD § 3-802

Summary Judgement

US Civil Rule 56

13

Supplemental Jurisdiction

28 U.S. Code § 1367

13

Theft of Artwork
Thirteenth Amendment

18 U.S. §668
US Constitution

14
15

Deprivation of Rights Under Color of
Law__________________ ____________
Diversity Jurisdiction
Embezzlement

4

7

9

Code

10-11

§

11
12

2-

Article III, Section 2, US Constitution
“The judicial power shall extend to all cases, in law and equity, arising
under this Constitution, the laws of the United States, and treaties made,
or which shall be made, under their authority;-to all cases affecting
ambassadors, other public ministers and consuls;--to all cases of admiralty
and maritime jurisdiction;-to controversies to which the United States
shall be a party;-to controversies between two or more states;-between a
state and citizens of another state;-between citizens of different
states;-between citizens of the same state claiming lands under grants of
different states, and between a state, or the citizens thereof, and foreign
states, citizens or subjects.
In all cases affecting ambassadors, other public ministers and consuls, and
those in which a state shall be party, the Supreme Court shall have
original jurisdiction. In all the other cases before mentioned, the Supreme
Court shall have appellate jurisdiction, both as to law and fact, with such
exceptions, and under such regulations as the Congress shall make.
The trial of all crimes, except in cases of impeachment, shall be by jury;
and such trial shall be held in the state where the said crimes shall have
been committed; but when not committed within any state, the trial shall
be at such place or places as the Congress may by law have directed.”
- Article III, Section 2, US Constitution, Cornell Law
Breach of Contract
Whether a party is in breach of contract is determined by the
“(a)
agreement or, in the absence of agreement, this title. A breach occurs if a
party without legal excuse fails to perform an obligation in a timely
manner, repudiates a contract, or exceeds a contractual use term, or
otherwise is not in compliance with an obligation placed on it by this title
or the agreement. A breach, whether or not material, entitles the aggrieved
party to its remedies. Whether a breach of a contractual use term is an
infringement or a misappropriation is determined by applicable
informational property rights law.
A breach of contract is material if:
(b)
The contract so provides;
(1)
The breach is a substantial failure to perform a term that is
(2)
an essential element of the agreement; or
The circumstances, including the language of the
(3)
agreement, the reasonable expectations of the parties, the standards and
practices of the business, trade, or industry, and the character of the
breach, indicate that:

3

The breach caused or is likely to cause substantial
(A)
harm to the aggrieved party; or
The breach substantially deprived or is likely
(B)
substantially to deprive the aggrieved party of a significant benefit it
reasonably expected under the contract.
The cumulative effect of nonmaterial breaches may be
(c)
material.”
- MD § 22-701, Justia

Certiorari
“Cases in the courts of appeals may be reviewed by the Supreme Court
by the following methods:
(1)
By writ of certiorari granted upon the petition of any party to any civil or
criminal case, before or after rendition of judgment or decree;...”
- 28 U.S. Code § 1254, Cornell Law

The Civil Rights Act of 1964, Title II
“All persons shall be entitled to the full and equal enjoyment of the
goods, services, facilities, privileges, advantages, and accommodations of
any place of public accommodation, as defined in this section, without
discrimination on the ground of race, color, religion, or national origin.”
-42 U.S.C. §2000a (a), Justice.gov

Deprivation of rights under color of law
“Whoever, under color of any law, statute, ordinance, regulation, or
custom, willfully subjects any person in any State, Territory,
Commonwealth, Possession, or District to the deprivation of any rights,
privileges, or immunities secured or protected by the Constitution or laws
of the United States, or to different punishments, pains, or penalties, on
account of such person being an alien, or by reason of his color, or race,
than are prescribed for the punishment of citizens, shall be fined under
this title or imprisoned not more than one year, or both; and if bodily injury
results from the acts committed in violation of this section or if such acts
include the use, attempted use, or threatened use of a dangerous weapon,
explosives, or fire, shall be fined under this title or imprisoned not more
than ten years, or both; and if death results from the acts committed in

H

violation of this section or if such acts include kidnapping or an attempt to
kidnap, aggravated sexual abuse, or an attempt to commit aggravated
sexual abuse, or an attempt to kill, shall be fined under this title, or
imprisoned for any term of years or for life, or both, or may be sentenced to
death.”
-18 U.S. Code § 242, Cornell Law

Diversity Jurisdiction
“(a) The district courts shall have original jurisdiction of all civil
actions where the matter in controversy exceeds the sum or value of
$75,000, exclusive of interest and costs, and is between—
(1) citizens of different States;
(2) citizens of a State and citizens or subjects of a foreign state, except that
the district courts shall not have original jurisdiction under this subsection
of an action between citizens of a State and citizens or subjects of a foreign
state who are lawfully admitted for permanent residence in the United
States and are domiciled in the same State;
(3) citizens of different States and in which citizens or subjects of a foreign
state are additional parties; and
(4) a foreign state, defined in section 1603(a) of this title, as plaintiff and
citizens of a State or of different States.
(b) Except when express provision therefor is otherwise made in a statute
of the United States, where the plaintiff who files the case originally in the
Federal courts is finally adjudged to be entitled to recover less than the
sum or value of $75,000, computed without regard to any setoff or
counterclaim to which the defendant may be adjudged to be entitled, and
exclusive of interest and costs, the district court may deny costs to the
plaintiff and, in addition, may impose costs on the plaintiff.
(c) For the purposes of this section and section 1441 of this title—
(1) a corporation shall be deemed to be a citizen of every State and foreign
state by which it has been incorporated and of the State or foreign state
where it has its principal place of business, except that in any direct action
against the insurer of a policy or contract of liability insurance, whether
incorporated or unincorporated, to which action the insured is not joined as
a party-defendant, such insurer shall be deemed a citizen of—
(A) every State and foreign state of which the insured is a citizen;

D

(B) every State and foreign state by which the insurer has been
incorporated; and
(C) the State or foreign state where the insurer has its principal place of
business ...”
- 28 U.S. Code § 1332, Cornell Law

Embezzlement
“Whoever embezzles, steals, purloins, or knowingly converts to his use or
the use of another, or without authority, sells, conveys or disposes of any
record, voucher, money, or thing of value of the United States or of any
department or agency thereof, or any property made or being made under
contract for the United States or any department or agency thereof; or
Whoever receives, conceals, or retains the same with intent to convert it
to his use or gain, knowing it to have been embezzled, stolen, purloined or
converted—
Shall be fined under this title or imprisoned not more than ten years, or
both; but if the value of such property in the aggregate, combining
amounts from all the counts for which the defendant is convicted in a
single case, does not exceed the sum of $1,000, he shall be fined under this
title or imprisoned not more than one year, or both.
The word “value” means face, par, or market value, or cost price, either
wholesale or retail, whichever is greater.”
- 18 U.S. Code § 641, Cornell Law
“Whoever, with intent to defraud, makes any false entry in any book of
the Department of Housing and Urban Development or makes any false
report or statement to or for such Department; or
Whoever receives any compensation, rebate, or reward, with intent to
defraud such Department or with intent unlawfully to defeat its purposes;
or
Whoever induces or influences such Department to purchase or acquire
any property or to enter into any contract and willfully fails to disclose any
interest which he has in such property or in the property to which such
contract relates, or any special benefit which he expects to receive as a
result of such contract—
Shall be fined under this title or imprisoned not more than one year, or
both.”
- 18 U.S. Code § 1012, Cornell Law

6

Exploitation of the poor and disabled
“...(1) A person may not knowingly and willfully obtain by deception,
intimidation, or undue influence the property of an individual that the
person knows or reasonably should know is a vulnerable adult with intent
to deprive the vulnerable adult of the vulnerable adult's property.
(2) A person may not knowingly and willfully obtain by deception,
intimidation, or undue influence the property of an individual that the
person knows or reasonably should know is at least 68 years old, with
intent to deprive the individual of the individual's property...”
- MD § 8-801, Justia

Federal Question
“The district courts shall have original jurisdiction of all civil actions
arising under the Constitution, laws, or treaties of the United States.”
-28 U.S. Code § 1331, Cornell Law

Final decisions of district courts
“The courts of appeals (other than the United States Court of Appeals
for the Federal Circuit) shall have jurisdiction of appeals from all final
decisions of the district courts of the United States, the United States
District Court for the District of the Canal Zone, the District Court of
Guam, and the District Court of the Virgin Islands, except where a direct
review may be had in the Supreme Court. The jurisdiction of the United
States Court of Appeals for the Federal Circuit shall be limited to the
jurisdiction described in sections 1292(c) and (d) and 1295 of this title.”
-28 U.S. Code § 1291, Cornell Law

First Amendment
“Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to assemble, and to
petition the Government for a redress of grievances.”
- First Amendment, congress.gov

7

Fourth Amendment
“The right of the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon probable cause, supported
by Oath or affirmation, and particularly describing the place to be searched,
and the persons or things to be seized.”
- Fourth Amendment, congress.gov

Fraud
“(a)Except as otherwise provided in this section, whoever, in any
matter within the jurisdiction of the executive, legislative, or judicial
branch of the Government of the United States, knowingly and willfully—
(1)
falsifies, conceals, or covers up by any trick, scheme, or device a material
fact;
(2)
makes any materially false, fictitious, or fraudulent statement or
representation; or
(3)
makes or uses any false writing or document knowing the same to contain
any materially false, fictitious, or fraudulent statement or entry;
shall be fined under this title, imprisoned not more than 5 years or, if the
offense involves international or domestic terrorism (as defined in section
2331), imprisoned not more than 8 years, or both. If the matter relates to
an offense under chapter 109A, 109B, 110, or 117, or section 1591, then the
term of imprisonment imposed under this section shall be not more than 8
years.

(b)
Subsection (a) does not apply to a party to a judicial proceeding, or that
party’s counsel, for statements, representations, writings or documents
submitted by such party or counsel to a judge or magistrate in that
proceeding.
(c)With respect to any matter within the jurisdiction of the legislative
branch, subsection (a) shall apply only to—

¥

a
(1)
administrative matters, including a claim for payment, a matter related to
the procurement of property or services, personnel or employment
practices, or support services, or a document required by law, rule, or
regulation to be submitted to the Congress or any office or officer within
the legislative branch; or
(2)
any investigation or review, conducted pursuant to the authority of any
committee, subcommittee, commission or office of the Congress, consistent
with applicable rules of the House or Senate.”
-18 U.S. Code § 1001, Cornell Law

“Whoever, knowingly and with intent to defraud the United States, or any
agency thereof, possesses any false, altered, forged, or counterfeited
writing or document for the purpose of enabling another to obtain from the
United States, or from any agency, officer or agent thereof, any sum of
money, shall be fined under this title or imprisoned not more than five
years, or both.”
-18 U.S. Code § 1002, Cornell Law

"fraud" includes:
" (1)

the willful making of a false statement or a false representation”
- MD § 8-501 (1), Justia

Harassment
“(a) A person may not follow another in or about a public place or
maliciously engage in a course of conduct that alarms or seriously annoys
the other:
(1) with the intent to harass, alarm, or annoy the other;
(2) after receiving a reasonable warning or request to stop by or on behalf
of the other; and
(3) without a legal purpose.

*1

(b) This section does not apply to a peaceable activity intended to express a
political view or provide information to others...”
-MD § 3-803, Justia

Interference with exercise of rights
“A person may not coerce, intimidate, threaten, interfere with, or retaliate
against any person:
(1) in the exercise or enjoyment of any right granted or protected by this
subtitle;
(2) because a person has exercised or enjoyed any right granted or
protected by this subtitle; or
(3) because a person has aided or encouraged any other person in the
exercise or enjoyment of any right granted or protected by this subtitle.”
- MD § 20-708, Justia

Larceny
“(a) Any person subject to this chapter who wrongfully takes, obtains, or
withholds, by any means, from the possession of the owner or of any other person
any money, personal property, or article of value of any kind—
(1)
with intent permanently to deprive or defraud another person of the use and
benefit of property or to appropriate it to his own use or the use of any person
other than the owner, steals that property and is guilty of larceny; or
(2)

with intent temporarily to deprive or defraud another person of the use and
benefit of property or to appropriate it to his own use or the use of any person
other than the owner, is guilty of wrongful appropriation.
(b)
Any person found guilty of larceny or wrongful appropriation shall be punished as
a court-martial may direct.”
- 10 U.S. Code § 921, Cornell Law
Malicious Trespass

10

A person may not enter or cross over private property or board the boat or
other marine vessel of another, after having been notified by the owner or the
owner's agent not to do so, unless entering or crossing under a good faith claim of
right or ownership.

“ (a)

A person may not remain on private property including the boat or
(b)
other marine vessel of another, after having been notified by the owner or the
owner's agent not to do so.
A person who violates this section is guilty of a misdemeanor and on
(c)
conviction is subject to imprisonment not exceeding 90 days or a fine not
exceeding $500 or both.
(d)

This section prohibits only wanton entry on private property.

This section also applies to property that is used as a housing project
and operated by a housing authority or State public body, as those terms are
defined in Article 44A of the Code, if an authorized agent of the housing authority
or State public body gives the required notice specified in subsection (a) or (b) of
this section.”
(e)

-MD § 6-403, Justia

Obstruction of Justice
“...Whoever corruptly, or by threats or force, or by any threatening
letter or communication influences, obstructs, or impedes or endeavors to
influence, obstruct, or impede the due and proper administration of the law
under which any pending proceeding is being had before any department
or agency of the United States, or the due and proper exercise of the power
of inquiry under which any inquiry or investigation is being had by either
House, or any committee of either House or any joint committee of the
Congress—
Shall be fined under this title, imprisoned not more than 5 years or, if the
offense involves international or domestic terrorism (as defined in section
2331), imprisoned not more than 8 years, or both.”
-18 U.S. § 1505, Cornell Law

Smoking Restriction Exceptions
“This subtitle does not apply to:
(1) Private homes, residences, including residences used as a business or
place of employment, unless being used by a person who is licensed or
registered under Title 5, Subtitle 5 of the Family Law Article to provide

child care, and private vehicles, unless being used for the public
transportation of children, or as part of health care or child care
transportation;
(2) A hotel or motel room rented to one or more guests as long as the total
percent of hotel or motel rooms being so used does not exceed 25%;
(3) A retail tobacco business that is a sole proprietorship, limited liability
company, corporation, partnership, or other enterprise, in which:
(i) The primary activity is the retail sale of tobacco products and
accessories; and
(ii) The sale of other products is incidental;
(4) Any facility of a manufacturer, importer, wholesaler, or distributor of
tobacco products or of any tobacco leaf dealer or processor in which
employees of the manufacturer, importer, wholesaler, distributor, or
processor work or congregate; or
(5) A research or educational laboratory for the purpose of conducting
scientific research into the health effects of tobacco smoke.”
-MD Health-Gen Code § 24-505, Justia

Stalking
"Stalking" defined.- In this section, "stalking" means a malicious
course of conduct that includes approaching or pursuing another where the
person intends to place or knows or reasonably should have known the
conduct would place another in reasonable fear:
“(a)

(1) (i) of serious bodily injury;
(ii) of an assault in any degree;
(iii) of rape or sexual offense as defined by §§ 3-303 through 3-308 of this
article or attempted rape or sexual offense in any degree;
(iv) of false imprisonment; or
(v) of death; or
(2) that a third person likely will suffer any of the acts listed in item (1) of
this subsection.
(b) Prohibited.- The provisions of this section do not apply to conduct that
is:

IZ

(1) performed to ensure compliance with a court order;
(2) performed to carry out a specific lawful commercial purpose; or
(3) authorized, required, or protected by local, State, or federal law.
(c) Applicability.- A person may not engage in stalking. ”
-MD § 3-802, Justia

Summary Judgement
“(a) Motion for Summary Judgment or Partial Summary Judgment. A
party may move for summary judgment, identifying each claim or defense
— or the part of each claim or defense — on which summary judgment is
sought. The court shall grant summary judgment if the movant shows that
there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law. The court should state on . the
record the reasons for granting or denying the motion...”
-Civil Rule 56, Cornell Law

1

1
Supplemental Jurisdiction
“(a) Except as provided in subsections (b) and (c) or as expressly
provided otherwise by Federal statute, in any civil action of which the
district courts have original jurisdiction, the district courts shall have
supplemental jurisdiction over all other claims that are so related to claims
in the action within such original jurisdiction that they form part of the
same case or controversy under Article III of the United States
Constitution. Such supplemental jurisdiction shall include claims that
involve the joinder or intervention of additional parties.
(b) In any civil action of which the district courts have original jurisdiction
founded solely on section 1332 of this title, the district courts shall not have
supplemental jurisdiction under subsection (a) over claims by plaintiffs
against persons made parties under Rule 14, 19, 20, or 24 of the Federal
Rules of Civil Procedure, or over claims by persons proposed to be joined as
plaintiffs under Rule 19 of such rules, or seeking to intervene as plaintiffs
under Rule 24 of such rules, when exercising supplemental jurisdiction
over such claims would be inconsistent with the jurisdictional
requirements of section 1332.
(c) The district courts may decline to exercise supplemental jurisdiction
over a claim under subsection (a) if—

steals or obtains by fraud from the care, custody, or control of a museum
any object of cultural heritage; or
(2)
knowing that an object of cultural heritage has been stolen or obtained by
fraud, if in fact the object was stolen or obtained from the care, custody, or
control of a museum (whether or not that fact is known to the person),
receives, conceals, exhibits, or disposes of the object,
shall be fined under this title, imprisoned not more than 10 years, or both.”
-18 U.S. § 668, Cornell Law

Thirteenth Amendment
“Neither slavery nor involuntary servitude, except as a punishment for
crime whereof the party shall have been duly convicted, shall exist within
the United States, or any place subject to their jurisdiction.”
- Thirteenth Amendment, Congress.gov

I'D

